U.S. Department of Agriculture
 Office of Inspector General
       Western Region
         Audit Report



       Food Stamp Program
       Administrative Costs
       State of Washington




                 Report No.
                 27099-16-SF
                 June 2001
                    UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL
                                       Western Region - Audit
                                    75 Hawthorne Street, Suite 200
                                 San Francisco, California 94105-3920
                               TEL: 415-744-2851 FAX: 415-744-2871


DATE:        June 12, 2001

REPLY TO
ATTN OF:     27099-16-SF

SUBJECT:     Food Stamp Program Administrative Costs
             State of Washington

TO:          Allen Ng
             Regional Administrator
             Western Region
             Food and Nutrition Service

ATTN:        Kathleen Burks
             Director of Financial Management
             Food and Nutrition Service


This report presents the results of our audit of the Food Stamp Program Administrative
Costs - State of Washington. Your June 4, 2001, response to the draft report is
included as exhibit F of the report. Excerpts from your response have been
incorporated into the relevant sections of the report.

To accept your management decision on Recommendation Nos.1, 2, and 5, we will
need documentation that the State was billed for the appropriate amount. To accept
your management decision on Recommendation Nos. 3, 4, and 6, we will need your
plan and a timeframe for determining when corrective action will be taken.

In accordance with Department Regulation 1720-1, please furnish a reply within 60
days describing the corrective action taken or planned and the timeframes for
implementation of those recommendations for which management decision has not
yet been reached. Please note that the regulation requires a management decision to
be reached on all recommendations within a maximum of 6 months from report
issuance.

We appreciate the cooperation and assistance provided by your staff during our audit.


/s/

SAM W. CURRIE
Regional Inspector General
 for Audit
                    EXECUTIVE SUMMARY

          FOOD STAMP PROGRAM ADMINISTRATIVE COSTS
                   STATE OF WASHINGTON
                 AUDIT REPORT NO. 27099-16-SF


                                     This report presents the results of our
     RESULTS IN BRIEF                audit of the administrative costs claimed
                                     by the State of Washington Department of
                                     Social and Health Services (DSHS) under
          the Food Stamp Program (FSP). Our objective was to determine
          the accuracy of DSHS’ administrative cost claims for FSP and the
          allowability of those costs.

             We judgmentally selected 6 of 18 cost categories: certification, fraud
             investigation, all four employment and training categories, and other
             activities such as department-wide indirect costs. These categories
             represented $70.9 million out of $85.9 million in administrative costs
             claimed by the State of Washington on the SF-269 report for Federal
             fiscal years FY(s) 1998 and 1999.

             Based on our review, we questioned $4.4 million for fraud
             investigation, attorney general, and indirect costs. USDA reimbursed
             the State for about 50 percent of these costs, or $2.2 million.

             We found that DSHS’ claims were not always accurate and the costs
             were not always supportable:

                •   DSHS used an unsupported method to allocate fraud
                    investigation costs to the FSP. DSHS officials could not
                    explain why they did not (1) use the approved plan to
                    allocate costs or (2) reimburse FNS for the overcharge once
                    they detected the error. Properly applying the methodology
                    in the allocation plan would have resulted in a claim of
                    $1,304,575 versus the $4,440,153 claimed by DSHS. As a
                    result, FNS overpaid DSHS by $1,567,789, the Federal 50-
                    percent share of the overcharge.

                •   DSHS incorrectly allocated $1,282,422 of indirect costs to
                    the FSP by (1) charging direct costs as indirect costs, and
                    (2) using incorrect allocation percentages to distribute

USDA/OIG-A/27099-16-SF                                                     Page i
                               department-wide indirect costs. Due to recent attrition,
                               DSHS officials could not explain why these errors occurred.
                               As a result, FNS overreimbursed DSHS by $639,8731 the
                               Federal share of the overcharge.

                       Also, DSHS did not follow Random Moment Time Study (RMTS)
                       procedures to allocate over $90 million in FSP administrative costs.
                       Specifically, DSHS officials did not: (1) administer samples in a timely
                       manner, (2) ensure sample sizes were reliable, and (3) take monthly
                       samples on a consistent basis. This occurred because DSHS officials
                       did not consider the importance of conducting a RMTS in accordance
                       with requirements. These practices diminished the validity and
                       reliability of the RMTS results and the allocation of FSP administrative
                       costs.

                                       We recommend that FNS recover from the
      KEY RECOMMENDATIONS              DSHS a total of $2,207,662 ($1,567,789
                                       for fraud investigation costs; $384,696 for
                                       attorney general costs; and $255,177 for
              the incorrect allocation percentages (see exhibit A).2 We also
              recommend that DSHS conduct reviews to ensure that they are in
              compliance with the RMTS instructions.

                                        In its June 4, 2001, written response to
          AGENCY RESPONSE               the draft report, the FNS Western
                                        Regional Office concurred with the report
                                        findings and recommendations. FNS’
               response is included as exhibit F of this report.




1
    $639,873 was not 50-percent of $1,282,422 because some costs were 100-percent reimbursable.
2
  Per FNS’ request at the exit conference, OIG summarized the overcharges by Federal fiscal years 1997
through 1999 (see exhibit E).


    USDA/OIG-A/27099-16-SF                                                                         Page ii
                                     TABLE OF CONTENTS


EXECUTIVE SUMMARY .......................................................................................... i

INTRODUCTION ..................................................................................................... 1

FINDINGS AND RECOMMENDATIONS................................................................. 5

CHAPTER 1 – DSHS DID NOT PROPERLY ALLOCATE FRAUD
INVESTIGATION COSTS ......................................................................................... 5

         FINDING NO. 1 ............................................................................................. 5
         Recommendation No. 1................................................................................. 6

CHAPTER 2 – DSHS INCORRECTLY CHARGED INDIRECT COSTS
TO THE FSP .......................................................................................................... 7

         FINDING NO. 2 ............................................................................................ 7
         Recommendation No. 2................................................................................. 9
         Recommendation No. 3................................................................................. 9
         Recommendation No. 4............................................................................... 10
         Recommendation No. 5................................................................................. 10

CHAPTER 3 – DSHS DID NOT PROPERLY IMPLEMENT ITS RANDOM
MOMENT TIME STUDY ........................................................................................ 11

         FINDING NO. 3 ........................................................................................... 11
         Recommendation No. 6............................................................................... 14

EXHIBITS

A – SUMMARY OF MONETARY RESULTS......................................................... 15
B – SITES VISITED .............................................................................................. 16
C – OIG’s COMPUTATION FOR DSHS’ DIVISION FRAUD OF
    INVESTIGATIONS COSTS ......................................................................... 17
D – OIG’s COMPUTATION OF ATTORNEY GENERAL COSTS ......................... 18




 USDA/OIG-A/27099-16-SF                                                                                     Page iii
E – OIG’s SUMMARY OF DSHS’ OVERCHARGES ............................................ 19
F – FNS' WRITTEN RESPONSE TO THE AUDIT REPORT .................................. 20

ABBREVIATIONS ................................................................................................ 21




USDA/OIG-A/27099-16-SF                                                                                Page iv
                           INTRODUCTION

                                  In 1977, Congress passed Public Law 95-
       BACKGROUND                 113, the Food Stamp Act, which made the
                                  Food Stamp Program (FSP) a permanent,
                                  Federal food assistance program that
           provides support to needy households. The Food and Nutrition
           Service (FNS) administers the program in 50 States, the District of
           Columbia, Guam, and the U.S. Virgin Islands.

             Title 7, Code of Federal Regulations (CFR), part 277, establishes
             uniform requirements for the management of funds provided to the
             State agencies for the administration of the FSP. Appendix A of
             part 277, “Principles for Determining Costs Applicable to
             Administration of the Food Stamp Program by State Agencies,”
             sets forth the principles for determining the allowable costs of
             administering the program.

             States prepare a quarterly financial status report (SF 269) of their
             FSP administrative costs and forward this report to FNS. FNS
             generally reimburses 50-percent of the States’ direct and indirect
             administrative costs for certifying households, anti-fraud and
             investigation activities, automated data processing operations, fair
             hearings, outreach, nutrition education, and electronic benefits
             transfer issuance.

             FNS received over $17.7 billion in fiscal year (FY) 1999 for the FSP,
             including $1.9 billion for administrative costs.      State agencies
             administer the FSP at State and local levels, including determination
             of eligibility and distribution of benefits. The State of Washington
             Department of Social and Health Services (DSHS) is responsible for
             various social and health programs in the State. Within DSHS, the
             Economic Services Administration administers the FSP through 65
             Community Services Offices.

             In the State of Washington, total Federal outlay for the FSP
             administrative costs increased from $39 million in FY 1998 to $46.9
             million in FY 1999. This represented an increase of 20 percent in 1
             year. Monthly participation decreased from 364,418 recipients in FY
             1998 to 306,654 in FY 1999, or a 16 percent decrease over 1 year.



USDA/OIG-A/27099-16-SF                                                   Page 1
             In 1999, Washington’s administrative cost per FSP participant was
             $153, compared to a national average of $107.

             DSHS bases its direct and indirect administrative costs on its cost
             allocation plan, approved by the cognizant Federal agency, the U.S.
             Department of Health and Human Services (HHS). Prior to approval,
             FNS has the opportunity to review the cost allocation plan and submit
             comments and recommendations to HHS. The FSP administrative
             costs are charged through direct and indirect costs. Direct costs
             are allocated according to case counts, direct charge, staff effort,
             and other approved methodologies. Department-wide indirect
             costs (utilities, supplies, maintenance, accounting, administrative,
             etc.) and some direct costs (eligibility determinations, certification,
             etc.) are allocated according to the Random Moment Time Studies
             (RMTS).

             Under RMTS, management selects a statistical sample of Community
             Services Office workers to complete a form indicating the programs
             they worked on at the sample time. After management summarizes
             the information from the sample forms, a percentage of
             participation is compiled for each financial program.          The
             information is entered into the automated cost allocation system
             each month, and costs are allocated to each program.

                                      Our objectives were to determine the
        OBJECTIVES                    accuracy of DSHS’ administrative cost
                                      claims for the FSP and the allowability of
                                      those costs.

                                     We performed this audit at the request of the
           SCOPE                     FNS Western Regional Office, which was
                                     concerned about the high administrative
                                     costs claimed by some of the States in the
            region. We selected the State of Washington because it had the
            highest administrative cost per FSP participant.

             DSHS is responsible for administering the FSP in Washington. We
             reviewed DSHS’ cost allocation plan that was in effect from July 1,
             1997 through June 30, 1999, and another plan that was in effect from
             July 1, 1999 through June 30, 2001. Based on the high dollar value
             of certain costs, we judgmentally selected 6 of 18 cost categories—
             certification, fraud investigation, and all four employment and
             training categories—and department-wide indirect costs. These
             categories represented $70.9 million out of $85.9 million in
             administrative costs claimed by the State of Washington on the SF

USDA/OIG-A/27099-16-SF                                                     Page 2
                         269 reports for Federal FY’s 1998 and 1999.3 After noting
                         discrepancies in fraud investigation costs, we expanded our scope to
                         include the last quarter of FY 1997—the earliest date that records
                         were still available.

                         In addition, we reviewed the Random Moment Time Study (RMTS)
                         used by the State to allocate administrative costs. We expanded our
                         coverage to include FY 2000 when our review identified problems
                         during the initial scope years.

                         We performed initial fieldwork from July 2000 through September
                         2000 and additional fieldwork in November 2000 at: the FNS Western
                         Regional Office in San Francisco, California; Washington State
                         Department of Social and Human Services (DSHS) in Lacey,
                         Washington; three Community Services Offices in Tacoma, Burien
                         and Seattle, Washington; and the attorney general’s office in Olympia,
                         Washington.

                         This audit was performed in accordance with generally accepted
                         government auditing standards.

                                                         To accomplish our objectives and support
              METHODOLOGY                                our findings, we performed the following
                                                         procedures:

                         •   We reviewed regulations, policies and procedures governing FSP
                             administrative costs, including Office of Management and Budget
                             Circular A-87.

                         • We interviewed FNS Western Regional Office officials to
                           determine what controls are used to monitor FSP administrative
                           costs at the State agencies and to identify any issues
                           concerning the budget approval process.

                         •   At the FNS Western Regional Office, we reviewed a recent FNS
                             financial management review of the State of Washington and
                             DSHS’ cost allocation plans approved by HHS.

                         •   We interviewed an official at HHS’ Division of Cost Allocation to
                             identify any issues relating to DSHS’ cost allocation plan.



3
    The State’s fiscal year is July 1 through June 30.


    USDA/OIG-A/27099-16-SF                                                               Page 3
            •   We reviewed the results of State and local level audits performed
                under the Single Audit Act to identify issues concerning the
                allocation of State administrative costs.

            •   We reviewed DSHS accounting records and analyzed charges
                and reimbursement claims made to the FSP on quarterly financial
                status reports during FY’s 1998 and 1999.

            •   We interviewed State and Community Services Office officials
                responsible for recording and reporting administrative costs and
                completing the RMTS. We also interviewed Community Services
                Offices sample employees to identify whether they completed the
                sample form, received the RMTS sample forms timely, and
                understood the instructions on the sample form.

            •   At DSHS’ Department of Fraud Investigations, we reviewed a
                sample of the investigation case files to determine whether the
                allocation methodology and resulting costs were supported by
                programs identified within the file.      We also interviewed
                investigators to determine the amount of staff effort spent on a
                FSP investigation, and to determine if time records were being
                currently maintained.

            •   We interviewed attorneys at the attorney general’s office to
                determine their time spent on the FSP, and we examined time
                reports which track the amount of staff effort spent on different
                programs.




USDA/OIG-A/27099-16-SF                                                  Page 4
                   FINDINGS AND RECOMMENDATIONS



    CHAPTER 1                 DSHS DID NOT PROPERLY ALLOCATE FRAUD
                              INVESTIGATION COSTS

                                             From July 1997 through June 1999, DSHS
                                             used an unsupported method to allocate
               FINDING NO. 1                 fraud investigation costs to the FSP.
                                             DSHS officials could not explain why they
                    did not (1) use the approved plan to allocate costs or (2) reimburse
                    FNS for the overcharge once they detected the error. Properly
                    applying the methodology in the allocation plan would have resulted
                    in a claim of $1,304,575 versus the $4,440,153 claimed by DSHS.
                    As a result, FNS overpaid DSHS by $1,567,789, the Federal 50-
                    percent share of the overcharge (see exhibit C).

                        The approved allocation plans required that fraud investigation
                        costs be based on the number of “case counts” completed by the
                        investigators. Regulations4 also require that “all costs allocable to
                        the FSP under cost allocation plans must be supported by formal
                        accounting records, which will substantiate the propriety of eventual
                        charges.”

                        During our review, we found that DSHS used an unsupportable
                        formula from July 1997 through June 1999 to allocate its fraud
                        investigation cost. DSHS’ formula skewed the percentages of the
                        actual case counts so that the FSP incorrectly paid for more than
                        half of the entire fraud investigation costs.

                        For example, although monthly food stamp cases averaged around
                        14 percent of all cases, DSHS charged the FSP a monthly average
                        rate of 54 percent. In comparison, an HHS block grant that
                        represented 78 percent of all case activity was charged at a rate of
                        42 percent.


4
    7CFR 277, Appendix A, section (I) dated January 1, 1997.


    USDA/OIG-A/27099-16-SF                                                          Page 5
            In July 1999, DSHS discontinued using the unsupportable formula
            and reverted to using the approved plan to allocate costs.
            However, DSHS failed to reimburse the FSP for overcharges it
            claimed during the 2-year period that it used the formula. Due to
            recent attrition, DSHS officials were unable to explain why they did
            not use the case count method to allocate costs or reimburse FNS
            for the overcharges once they detected the error. We recomputed
            costs based on the case count method and determined that FNS
            overreimbursed DSHS $1,567,789.


RECOMMENDATION NO. 1

            Recover $1,567,789 in administrative costs that were overcharged
            by DSHS for fraud investigations.

            FNS Response

            In its written response to the draft report, dated June 4, 2001, FNS
            concurred with this finding and recommendation.

            OIG Position

            To accept your management decision on this recommendation, we
            need documentation that the State was billed for this amount.




USDA/OIG-A/27099-16-SF                                                   Page 6
     CHAPTER 2                 DSHS INCORRECTLY CHARGED INDIRECT
                               COSTS TO THE FSP

                                             DSHS incorrectly allocated $1,282,422 of
                                             indirect costs to the FSP by (1) charging
                FINDING NO. 2                direct costs as indirect costs, and (2) using
                                             incorrect    allocation    percentages     to
                     distribute department-wide indirect costs. Due to recent attrition,
                     DSHS officials could not explain why these errors occurred. As a
                     result, FNS overreimbursed DSHS by $639,873, the Federal share
                     of the overcharge.

                         According to the cost allocation plan, DSHS’ administrative expenses
                         are charged through direct and indirect costs. Direct costs, such as
                         attorney general payroll and certification, are allocated through
                         case counts, time sheets, and other approved methodologies.
                         Indirect costs include utilities, supplies, maintenance, accounting,
                         administrative, etc. These costs are allocated based on Random
                         Moment Time Studies.

                         We reviewed the accuracy and the allowability of DSHS’ claims from
                         July 1997 through June 1999 for attorney general costs and
                         department-wide indirect costs. Based on our review, we
                         determined that DSHS had incorrectly claimed reimbursement for
                         these costs:

                         DSHS charged direct costs as indirect costs.

                         From July 1997 through June 1999, DSHS incorrectly allocated
                         attorney general costs as an indirect cost. DSHS officials could not
                         explain why they did not follow the approved plan to charge the
                         costs as direct costs. Following the approved plan would have
                         resulted in a claim of $155,893 versus the $927,960 claimed by
                         DSHS. As a result, FNS overpaid DSHS by $384,696, the Federal
                         share of the overcharge.

                         The cost allocation plan5 states that the attorney general’s services
                         are to be directly charged based on staff effort.


5
    DSHS’ allocation plan was approved and dated by HHS’ Division of Cost Allocation on July 1, 1997.


    USDA/OIG-A/27099-16-SF                                                                              Page 7
                        The attorney general’s office, an independent agency, bills DSHS
                        for its monthly legal services. The monthly bills identify the amount
                        of staff time expended for FSP-related issues.

                        However, instead of charging the FSP for the actual amount of time
                        recorded on the time sheets, DSHS allocated the entire bill on the
                        same basis as it allocated department-wide indirect costs. We
                        recomputed the attorney general’s costs using the summary bills
                        submitted to the department.        The attorney general’s office
                        prepared the summary bills using the time sheets prepared by its
                        attorneys. We determined that DSHS overclaimed $772,067 (see
                        exhibit D), of which the Federal Government reimbursed $384,696.

                        DSHS used incorrect allocation percentages to distribute
                        department-wide indirect costs.

                        DSHS overcharged FNS $510,355 in department-wide indirect costs
                        for 3 months because it used incorrect allocation percentages to
                        distribute the costs. The Federal Government’s 50-percent share of
                        the overcharge amounted to $255,177.

                        Regulations6 state, “indirect cost pools should be distributed to the
                        benefiting cost objective on bases which will produce an equitable
                        result in consideration of relative benefits derived.”

                        DSHS distributed department-wide indirect costs based on the
                        number of full-time equivalents (FTE’s) assigned to a particular cost
                        objective. From July 1997 through May 1999, the FTE’s ranged
                        from 873 to 1,395. However, for June 1999 through August 1999,
                        the FTE’s increased to 2,053. We questioned the increase for
                        these 3 months because only a maximum of 1,800 FTE’s were
                        assigned to the FSP.

                        Subsequently, DSHS determined that it had used an incorrect FTE
                        number to calculate the allocation percentages. Specifically, a
                        DSHS official found that one of its field offices had mistakenly
                        entered a journal voucher that used the dollar amount instead of
                        the number of FTE’s in its payroll allocation. He also found that
                        some of the field offices had entered their journal vouchers for the
                        cumulative total staff effort, instead of allocating the effort over a
                        few months.


6
    7CFR 277, Appendix A, (F)(1), dated January 1, 1997.


    USDA/OIG-A/27099-16-SF                                                           Page 8
            Based on our discussions with DSHS officials, they recomputed the
            allocation percentages and determined that the total overcharge to
            the FSP amounted to $510,355; the Federal share amounted to
            $255,177.

            From the information provided above, DSHS should reimburse FNS
            $639,873 which is comprised of $384,696 for attorney general
            costs, and $255,177 for errors made in department-wide indirect
            cost.



 RECOMMENDATION NO. 2

            Recover $384,696 in administrative costs that were overcharged by
            DSHS for attorney general costs.

            FNS Response

            In its written response to the draft report, dated June 4, 2001, FNS
            concurred with this finding and recommendation.

            OIG Position

            To accept your management decision on this recommendation, we
            need documentation that the State was billed for this amount.


RECOMMENDATION NO. 3

            Instruct DSHS to use the time sheets provided by the attorney
            general’s office and only charge for the services rendered to the
            FSP.

            FNS Response

            In its written response to the draft report, dated June 4, 2001, FNS
            concurred with this finding and recommendation.

            OIG Position

            To accept your management decision on this recommendation, we
            need a proposed completion date for implementation of the
            corrective action.

USDA/OIG-A/27099-16-SF                                                 Page 9
 RECOMMENDATION NO. 4

            Determine the amount of attorney general overcharges made from
            July 1999 to the date of the instruction (see Recommendation No.
            3) and recover any additional overcharges to the program.

            FNS Response

            In its written response to the draft report, dated June 4, 2001, FNS
            concurred with this finding and recommendation.

            OIG Position

            To accept your management decision on this recommendation, we
            need a proposed completion date for implementation of the
            corrective action.


 RECOMMENDATION NO. 5

            Recover $255,177 in administrative costs that were overcharged by
            DSHS for processing erroneous journal entries to the department-
            wide indirect costs.

            FNS Response

            In its written response to the draft report, dated June 4, 2001, FNS
            concurred with this finding and recommendation.

            OIG Position

            To accept your management decision on this recommendation, we
            need documentation that the State was billed for this amount.




USDA/OIG-A/27099-16-SF                                                Page 10
                              DSHS DID NOT PROPERLY IMPLEMENT ITS
    CHAPTER 3
                              RANDOM MOMENT TIME STUDY

                                              DSHS did not follow Random Moment Time
                                              Study (RMTS) procedures to allocate over
              FINDING NO. 3                   $90 million in FSP administrative costs.
                                              Specifically, DSHS officials did not: (1)
                   administer samples in a timely manner, (2) ensure sample sizes were
                   reliable, and (3) take monthly samples on a consistent basis. This
                   occurred primarily because DSHS officials did not consider the
                   importance of conducting a RMTS in accordance with requirements.
                   These practices diminished the validity and reliability of the RMTS
                   results and the allocation of FSP administrative costs.

                       The Office of Management and Budget (OMB) Circular A-877 states
                       that DSHS may use RMTS in place of activity reports, but the
                       sampling “must meet acceptable statistical sampling standards [in
                       that] the results must be statistically valid and applied to the period
                       being sampled.”

                       HHS approved DSHS’ use of RMTS as the basis for allocating costs
                       to the various Federal and State programs, including the FSP. RMTS
                       is a technique for scientifically determining the amount of effort spent
                       by a group of employees on various activities. The sampling unit is
                       defined as a single moment, randomly selected within the standard
                       workday. The sample is drawn electronically from DSHS’ payroll
                       system.

                       Sampled workers from the Community Services Offices completed a
                       form showing the programs they worked on at the sample time.
                       DSHS summarized the information and calculated a percentage of
                       participation for each financial program. Based on this percentage,
                       costs were allocated to the programs.

                       We reviewed the RMTS records from July 1, 1997, through June
                       30, 2000, and determined the following:




7
 Cost Principles for State, Local, and Indian Tribal Governments, Attachment B, 11h(6) revised May 4, 1995, as further
amended August 29, 1997.


    USDA/OIG-A/27099-16-SF                                                                              Page 11
                          DSHS did not administer samples in a timely manner.

                          Over half of the workers we interviewed did not receive the
                          forms in a timely manner. Lead workers stated that they had
                          not received formal training regarding their responsibilities to
                          administer the RMTS sample. As a result, the data used to
                          allocate millions in program funds were invalid and biased.

                          The allocation plan8 states, “Community Services Offices
                          Administrators are responsible for informing all financial staff
                          that when a worker is on the job and working, the RMTS must
                          be administered at the sampled time. Samples must be taken
                          within the hour following the requested time to be considered
                          valid [original emphasis].”

                          We interviewed 49 of 181 eligible workers9 from three
                          Community Services Offices. We found that 25 (over 50
                          percent) of these workers participating in a RMTS did not
                          receive their sample forms within an hour of the sample time.
                          Some workers said that they had received the RMTS forms up
                          to 2 weeks before or after the RMTS sample time.

                          At DSHS, RMTS functions were performed by RMTS
                          coordinators, who informed us that they further delegated some
                          RMTS activities to their lead workers. We interviewed lead
                          workers who stated that they had not received formal training
                          regarding their responsibilities to administer the RMTS sample
                          and they did not realize its importance.

                          Alerting participants in the RMTS too early can bias the data;
                          informing them too late, when they would have to rely on
                          memory, can interfere with accuracy. Because samples were
                          not taken within the hour following the sample moment, the
                          samples are not valid according to the cost allocation plan.

                          DSHS did not ensure sample sizes were reliable.

                          From July 1997 through June 1999, DSHS did not ensure that
                          the sample sizes were reliable. DSHS did not meet the sample
8
 The State agency’s Administrative Cost Allocation Plan was approved by the Division of Cost Allocation, of the
U.S. Department of Health and Human Services and dated effective on July 1, 1997. The plan was revised July
23, 1997.
9
 According to Washington’s RMTS Instructions dated July 1997, “Financial Service Specialists 1, 2 or 3 or
Customer Service Specialist in the Community Service Division are eligible to be sampled.”


    USDA/OIG-A/27099-16-SF                                                                         Page 12
               size requirement for 13 of 24 months. Because the department
               had undergone recent attrition, the Administrator did not know
               how the parameters were established and was unable to explain
               why the number of samples selected did not meet the minimum
               required by the allocation plan. These practices diminished the
               reliability of the RMTS results and the allocation of FSP
               administrative costs.

               DSHS’ allocation plan states, “The RMTS Administrator is
               responsible for accounting for every sample (approximately
               1,150) for each month.” We noted that the sample size ranged
               from 901 to 1,092 during the months when the sample size was
               deficient.

               Although the sample size is stipulated in the allocation plan,
               RMTS coordinators rely on the monthly sample forms to
               establish the parameters of the samples. The monthly sample
               forms are generated by DSHS’ Information Systems Service
               Division and mailed to the Community Service Offices, where
               the RMTS coordinators are stationed. Completed forms are
               mailed to the State office and compiled in a database.
               Consequently, the State office is positioned to ensure that the
               systems department is adhering to the required sample size.

               Monthly samples were not conducted in a consistent basis.

               In 1999, DSHS did not complete the RMTS for 4 months (April,
               August, September, and November). DSHS believed it had
               verbal approval from HHS to forgo conducting the RMTS every
               month. However, HHS informed us that there was no record of
               such approval and that verbal approval would not be adequate
               to allow a change to the RMTS procedures. Because the
               monthly samples were not conducted, the reliability and validity
               of the RMTS results were further diminished.

               An official from DSHS informed us that the study was not
               conducted in April due to technical difficulties in printing the
               forms. For the other 3 months they did not conduct the studies
               because they believed that the allocation percentages for the
               program did not vary much from month to month. During these
               months that RMTS was not completed, DSHS used the results
               from a prior month instead.




USDA/OIG-A/27099-16-SF                                               Page 13
               However, the assumption that allocation percentages remained
               consistent from month to month was incorrect. We noted that
               during the months before the studies were discontinued, the
               allocation percentage for FSP administrative costs fluctuated
               significantly, from 24.8 to 45.2 percent, a fluctuation that
               continued after the monthly studies were resumed.
               Consequently, an inaccurate allocation percentage was likely to
               have been applied to the FSP administrative expenditures.

            We believe the deficiencies mentioned above demonstrate that the
            RMTS results cannot be relied upon to represent a valid and
            reliable measure of activities regarding the public assistance
            programs, including the FSP administrative costs. The deficiencies
            would impact the allocation of costs for all programs in Washington
            State. These deficiencies may have affected the $90 million in
            administrative costs charged to the FSP from October 1997 through
            September 2000.

            DSHS has since scheduled a training session for RMTS
            coordinators at the regional offices during the spring of 2001. In
            addition, DSHS established a biweekly e-mail correspondence with
            RMTS coordinators to inform them of new policies and procedures.


 RECOMMENDATION NO. 6

            Require DSHS’ State office to conduct reviews to ensure
            compliance with the RMTS instructions.

            FNS Response

            In its written response to the draft report, dated June 4, 2001, FNS
            concurred with this finding and recommendation.

            OIG Position

            To accept your management decision on this recommendation, we
            need a proposed completion date for implementation of the
            corrective action.




USDA/OIG-A/27099-16-SF                                                Page 14
EXHIBIT A – SUMMARY OF MONETARY RESULTS

 RECOMMENDATION         DESCRIPTION            AMOUNT            CATEGORY
     NUMBER
                  DSHS overcharged fraud                    Questioned Cost,
                  investigation costs to the                Recovery Recommended
       1          FSP                          $1,567,789

                  DSHS incorrectly                          Questioned Cost,
                  determined the attorney                   Recovery Recommended
       2          general costs to the FSP      $384,696

                  DSHS overcharged the                      Questioned Cost,
                  FSP for department-wide                   Recovery Recommended
       5          indirect costs                $255,177

TOTAL MONETARY
RESULTS                                        $2,207,662




USDA/OIG-A/27099-16-SF                                                  Page 15
EXHIBIT B – SITES VISITED

                                    SITE                                       LOCATION

  FOOD AND NUTRTION SERVICE WESTERN REGIONAL OFFICE                       San Francisco, CA
  STATE OF WASHINGTON DEPARTMENT OF SOCIAL AND HEALTH
   SERVICES

  Division of Finance, Office of Accounting Services                      Lacey, WA
  Division of Fraud and Investigations                                    Lacey, WA
  Economic Services Administration, Division of Management & Operations
   Support                                                                Lacey, WA
   Community Services Offices:
    Burien                                                                Seattle, WA
    Pierce South                                                          Tacoma, WA
    Rainier                                                               Seattle, WA
  Employee Services Division, Information Technology                      Lacey, WA

 ATTORNEY GENERAL OF WASHINGTON                                           Olympia, WA




USDA/OIG-A/27099-16-SF                                                                  Page 16
EXHIBIT C – OIG’s COMPUTATION FOR DSHS’ DIVISION OF
            FRAUD INVESTIGATIONS COSTS

                                  DSHS - DIVISION OF FRAUD INVESTIGATIONS (DFI)

                                               JULY 1997 - JUNE 1999
                                                                                               OIG’s
                                                                                            COMPUTATION     FEDERAL
                                   FSP                                                          OF         SHARE OF
              FSP     TOTAL    CASES/TOTAL (2) TOTAL DFI     (3)FSPSHARE     (4)FSP
                                                                                  SHARE     OVERCHARGE    OVERCHARGE
 MONTHS      CASES    CASES       CASES    EXPENDITURE          PER OIG       PER DSHS        TO FSP         TO FSP
   A           B        C         D=B/C           E              F=D*E           G             H=G-F          I=H*.5
    Jul-97    138      1,339      10.31%        $ 335,015       $34,527       $177,257       $142,730      $71,365
    Aug-97    186      1,577      11.79%        $ 534,017       $62,985       $285,112       $222,127     $111,063
    Sep-97    229      1,845      12.41%        $362,779        $45,028       $193,470       $148,442      $74,221
    Oct-97    248      2,011      12.33%        $342,203        $42,201       $182,497       $140,296      $70,148
    Nov-97    172      1,674      10.27%        $350,751        $36,039       $186,775       $150,736      $75,368
    Dec-97    245      1,880      13.03%        $417,218        $54,371       $221,960       $167,589      $83,794
    Jan-98    206      1,508      13.66%        $359,219        $49,071       $191,320       $142,249      $71,124
    Feb-98    286      2,123      13.47%        $339,691        $45,761       $180,987       $135,226      $67,613
 (1)Mar-98    243      1,582      15.36%        $364,594        $56,002        $56,002          $0           $0
 (1)Apr-98    198      1,427      13.88%        $348,568        $48,381        $48,381          $0           $0
(1)May-98     289      1,579      18.30%        $354,726        $64,915        $64,915          $0           $0
    Jun-98    281      1,686      16.67%        $417,214        $69,536       $225,546       $156,010      $78,005
    Jul-98    342      2,038      16.78%        $368,033        $61,760       $199,694       $137,934      $68,967
    Aug-98    352      1,875      18.77%        $396,597        $74,454       $217,256       $142,802      $71,401
    Sep-98    273      1,829      14.93%        $380,170        $56,745       $208,447       $151,702      $75,851
    Oct-98    273      1,583      17.25%        $370,854        $63,956       $203,079       $139,123      $69,562
    Nov-98    239      1,800      13.28%        $367,777        $48,833       $200,622       $151,789      $75,895
    Dec-98    262      1,796      14.59%        $381,025        $55,584       $207,011       $151,427      $75,714
    Jan-99    188      1,693      11.10%        $381,969        $42,416       $206,492       $164,076      $82,038
    Feb-99    264      2,011      13.13%        $333,300        $43,755       $179,182       $135,427      $67,714
    Mar-99    319      2,086      15.29%        $367,122        $56,142       $197,475       $141,333      $70,667
    Apr-99    320      1,887      16.96%        $366,351        $62,126       $197,097       $134,971      $67,485
    May-99    454      2,990      15.18%        $370,760        $56,296       $199,877       $143,581      $71,790
    Jun-99    449      2,360      19.03%        $387,328        $73,691       $209,699       $136,008      $68,004

   Total                                       $8,997,281    $1,304,575      $4,440,153     $3,135,578    $1,567,789

Notes:
(1) DSHS properly used the method in its allocation plan to allocate DFI costs from March 1998-May1998.
(2) These are DFI’s monthly expenditure for welfare programs in the State.
(3) OIG calculations were based on the FSP case counts as approved in the allocation plan.
(4) DSHS’ calculations were based on an unsupportable formula.




 USDA/OIG-A/27099-16-SF                                                                                   Page 17
EXHIBIT D – OIG’s COMPUTATION OF ATTORNEY GENERAL
            COSTS

                                                      ATTORNEY GENERAL EXPENDITURE ANALYSIS
                                                               JULY 1997 - JUNE 1999

                          Total Time
              Attorney General                  Actual Time      % of Actual      FSP Share       50% Federal         Actual
              Costs Charge   Spent             Spent on FSP      Time Spent            of          Share of         FSP Costs          Total
                       (2)                               (3)
               To DSHS     on DSHS                in FTE           on FSP         Total Cost       Total Cost      Determined       Overcharges
       (1)                        (3)
 DATE          (Per DSHS)  in FTE                (Per OIG)        (Per OIG)        (Per OIG)       (Per OIG)       (Per DSHS)         to FSP
    A               B          C                      D            E = D/C          F = E*B        G = F*50%            H             I = H-G
  Jul-97         $4,577,908 103.819                 0.469          0.452%                                               $33,721
  Aug-97                     95.160                 0.393          0.413%                                                 25,801
  Sep-97                     93.383                 0.418          0.448%                                                 25,037
  Oct-97                     98.719                 0.496          0.502%
  Nov-97                    102.418                 0.600          0.586%
  Dec-97       4,133,351    102.418                 0.507          0.495%                                                 50,154
  Jan-98       4,133,351    106.716                 0.513          0.481%                                                 13,877
  Feb-98                    104.173                 0.230          0.221%                                                 17,714
  Mar-98                    105.970                 0.570          0.538%                                                 15,933
  Apr-98        (381,880) 103.927                   0.394           0.379%                                                (4,509)
  May-98                    107.148                 0.703          0.656%
  Jun-98       1,227,121    105.867                 0.000          0.000%                                                 14,523
TOTAL        $13,689,852 1,229.718                  5.293          0.4309%           $58,983(4)        $29,492          $192,252      $162,760
  Jul-98      $3,068,537    104.582                 0.015          0.014%                                                $36,286
  Aug-98                    104.410                 0.037          0.035%
  Sep-98       4,159,601    103.632                 0.000          0.000%                                                 62,895
  Oct-98                     91.943                 0.632          0.687%
  Nov-98                    107.818                 0.757          0.702%
  Dec-98       4,052,155    106.490                 0.582          0.547%                                                 53,763
  Jan-99             342    107.756                 0.612          0.568%
  Feb-99       4,159,601    103.475                 0.528          0.510%                                                 27,921
  Mar-99                    102.868                 0.490          0.476%                                                 18,697
  Apr-99                    102.868                 0.487          0.473%
  May-99       4,940,801    102.868                 0.918          0.892%                                                 38,587
  Jun-99                    105.916                 0.847          0.800%                                                 32,242
  TOTAL      $20,381,037 1,244.626                  5.905          0.4755%           $96,910(5)        $48,455          $270,391      $221,936
   TOTAL OVERCHARGES                                                                                                                  $384,696


Notes:
(1)
    The State fiscal year was used to determine the overcharges since the Attorney General’s office and DSHS both operate by the State fiscal year.
(2)
    A Revolving Fund is used to make "advance" payments to the AG's Office until the actual costs are determined and reconciled at a later time.
(3)
     FTE = full-time equivalent; 1 FTE = 8 hours
(4)
    Total amount charged for the year multiplied by percentage of actual time spent on FSP; ($13,689,852 x 0.4309%)
(5)
    Total amount charged for the year multiplied by percentage of actual time spent on FSP; ($20,381,037 x 0.4755%)




  USDA/OIG-A/27099-16-SF                                                                                                           Page 18
EXHIBIT E – OIG’s SUMMARY OF DSHS’ OVERCHARGES

                                              1                                              2
  RECOMMENDATION                    FY1997                  FY1998                  FY1999           TOTAL
     NUMBER /
    DESCRIPTION

          1
  Fraud Investigation
                                   $256,649                $662,271                $648,869         $1,567,789
        Costs

           2
   Attorney General
              3                     $77,187                $172,640                $134,869         $384,696
        Costs

           5
   Department-wide
                                                                                   $255,177         $255,177
    Indirect Costs


      TOTAL
                                   $333,836                $834,911               $1,038,915        $2,207,662
   OVERCHARGES

Notes:
1
  Only the last quarter (July 1997 – September 1997) of FY 1997
2
  The first three quarters (October 1998 – June 1999) of FY 1999
3
  Attorney general costs were prorated for each Federal fiscal year because DSHS did not allocate
  these costs on a month-to-month basis.




 USDA/OIG-A/27099-16-SF                                                                                Page 19
EXHIBIT F – FNS’ WRITTEN RESPONSE TO THE AUDIT REPORT




USDA/OIG-A/27099-16-SF                           Page 20
ABBREVIATIONS
AG        Attorney General
CFR       Code of Federal Regulations
DFI       Division of Fraud Investigations
DSHS      Department of Social and Health Services
FY        Fiscal Year
FNS       Food and Nutrition Service
FSP       Food Stamp Program
FTE       Full-Time Equivalent
HHS       U.S. Department of Health and Human Services
OMB       Office of Management and Budget
RMTS      Random Moment Time Study




USDA/OIG-A/27099-16-SF                                   Page 21
